<html>
<title> - H.R. 3670, THE ANTI-SPOOFING ACT OF 2013; H.R., THE LPTV AND TRANSLATOR ACT OF 2014; AND H.R., THE E-LABEL ACT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





  H.R. 3670, THE ANTI	SPOOFING ACT OF 2013; H.R. _____, THE LPTV AND 
              TRANSLATOR ACT OF 2014; AND H.R. ____, THE 
                              E	LABEL ACT
======================================================================


                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                    
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 24, 2014

                               __________

                           Serial No. 113-166



      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov



                       U.S. GOVERNMENT PUBLISHING OFFICE 

92-674 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          

                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky               FRANK PALLONE, Jr., New Jersey
JOHN SHIMKUS, Illinois               BOBBY L. RUSH, Illinois
JOSEPH R. PITTS, Pennsylvania        ANNA G. ESHOO, California
GREG WALDEN, Oregon                  ELIOT L. ENGEL, New York
LEE TERRY, Nebraska                  GENE GREEN, Texas
MIKE ROGERS, Michigan                DIANA DeGETTE, Colorado
TIM MURPHY, Pennsylvania             LOIS CAPPS, California
MICHAEL C. BURGESS, Texas            MICHAEL F. DOYLE, Pennsylvania
MARSHA BLACKBURN, Tennessee          JANICE D. SCHAKOWSKY, Illinois
  Vice Chairman                      JIM MATHESON, Utah
PHIL GINGREY, Georgia                G.K. BUTTERFIELD, North Carolina
STEVE SCALISE, Louisiana             JOHN BARROW, Georgia
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   DONNA M. CHRISTENSEN, Virgin 
GREGG HARPER, Mississippi            Islands
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BILL CASSIDY, Louisiana              JOHN P. SARBANES, Maryland
BRETT GUTHRIE, Kentucky              JERRY McNERNEY, California
PETE OLSON, Texas                    BRUCE L. BRALEY, Iowa
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
CORY GARDNER, Colorado               BEN RAY LUJAN, New Mexico
MIKE POMPEO, Kansas                  PAUL TONKO, New York
ADAM KINZINGER, Illinois             JOHN A. YARMUTH, Kentucky
H. MORGAN GRIFFITH, Virginia
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Ohio
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina

                                 7_____

             Subcommittee on Communications and Technology

                          GREG WALDEN, Oregon
                                 Chairman
ROBERT E. LATTA, Ohio                ANNA G. ESHOO, California
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               MICHAEL F. DOYLE, Pennsylvania
LEE TERRY, Nebraska                  DORIS O. MATSUI, California
MIKE ROGERS, Michigan                BRUCE L. BRALEY, Iowa
MARSHA BLACKBURN, Tennessee          PETER WELCH, Vermont
STEVE SCALISE, Louisiana             BEN RAY LUJAN, New Mexico
LEONARD LANCE, New Jersey            JOHN D. DINGELL, Michigan
BRETT GUTHRIE, Kentucky              FRANK PALLONE, Jr., New Jersey
CORY GARDNER, Colorado               BOBBY L. RUSH, Illinois
MIKE POMPEO, Kansas                  DIANA DeGETTE, Colorado
ADAM KINZINGER, Illinois             JIM MATHESON, Utah
BILLY LONG, Missouri                 G.K. BUTTERFIELD, North Carolina
RENEE L. ELLMERS, North Carolina     HENRY A. WAXMAN, California (ex 
JOE BARTON, Texas                        officio)
FRED UPTON, Michigan (ex officio)

                                  (ii)
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     1
    Prepared statement...........................................     3
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, opening statement...............................     4
Hon. Michael F. Doyle, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     5
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, opening statement.......................................     6
    Prepared statement...........................................     7
Hon. Robert E. Latta, a Representative in Congress from the State 
  of Ohio, opening statement.....................................     7
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................    46

                               Witnesses

Hon. Robert E. Latta, a Representative in Congress from the State 
  of Ohio........................................................     8
    Prepared statement...........................................    10
Hon. Grace Meng, a Representative in Congress from the State of 
  New York.......................................................    13
    Prepared statement...........................................    15
Louis Libin, Executive Director, Advanced Television Broadcasting 
  Alliance.......................................................    18
    Prepared statement...........................................    20
    Answers to submitted questions...............................    60
Harold Feld, Senior Vice President, Public Knowledge.............    25
    Prepared statement...........................................    27
    Answers to submitted questions...............................    65

                           Submitted Material

H.R. 3670, the Anti-Spoofing Act of 2013, submitted by Mr. Walden    47
H.R. --------, the LPTV and Translator Preservation Act of 2014, 
  submitted by Mr. Walden........................................    53
H.R. --------, the Enhance Labeling, Accessing, and Branding of 
  Electronic Licenses Act of 2014, submitted by Mr. Walden.......    56

 
 H.R. 3670, THE ANTI-SPOOFING ACT OF 2013; H.R. --------, THE LPTV AND 
            TRANSLATOR ACT OF 2014; AND H.R. --------, THE 
                              E-LABEL ACT

                              ----------                              


                        THURSDAY, JULY 24, 2014

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:12 a.m., in 
room 2322 of the Rayburn House Office Building, Hon. Greg 
Walden (chairman of the subcommittee) presiding.
    Members present: Walden, Latta, Shimkus, Terry, Lance, 
Guthrie, Gardner, Long, Ellmers, Barton, Eshoo, Doyle, Braley, 
Welch, Matheson, and Waxman (ex officio).
    Staff present: Ray Baum, Senior Policy Advisor/Director of 
Coalitions; Leighton Brown, Press Assistant; Andy Duberstein, 
Deputy Press Secretary; Graham Dufault, Policy Coordinator, 
Commerce, Manufacturing, and Trade; Gene Fullano, FCC Detailee; 
Kelsey Guyselman, Counsel, Communications and Technology; Grace 
Koh, Counsel, Communications and Technology; David Redl, Chief 
Counsel, Communications and Technology; Charlotte Savercool, 
Legislative Clerk; Shawn Chang, Democratic Chief Counsel, 
Communications and Technology; Margaret McCarthy; Democratic 
Professional Staff Member; Ryan Skukowski, Democratic Policy 
Analyst; and Patrick Donovan, Democratic FCC Detailee.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. We will call to order the Subcommittee on 
Communications and Technology for our hearing on H.R. 3670, the 
Anti-Spoofing Act of 2013, the LPTV and Translator Act of 2014, 
and the E-LABEL Act. We are here today to conduct an important 
part of the committee's business, a legislative hearing on 
bills and discussion drafts. We will be considering three 
different but useful pieces of legislation that will benefit 
consumers, streamline electronic device manufacturing for the 
digital age and protect Americans from misleading 
communications.
    H.R. 3670, the Anti-Spoofing Act of 2013, aims to prevent 
bad actors from using spoofing services to misrepresent who is 
sending a text message. Introduced by Representatives Barton 
and Meng, this bipartisan bill enhances the protections of the 
Truth in Caller ID Act of 2009 by extending the prohibition to 
text messaging. Spoofing, when a caller purposefully falsifies 
who is originating a call or a text message, has often been 
used maliciously by scammers to trick unsuspecting recipients. 
By utilizing one of the many easily found spoofing services, 
the perpetrator can make a text message appear as though it is 
from anyone the sender chooses to impersonate; usually, posing 
as a familiar Web site, service or friend or relative of the 
recipient. Thinking they are talking to someone they know and 
trust, the person on the receiving end is convinced to give up 
personal and sensitive information like bank account numbers or 
passwords. For example, customers of a Florida credit union 
received text messages that were allegedly from the bank, 
alerting them to unusual activity on their account, and 
requesting information, including credit card numbers, PIN 
numbers and account numbers. While the credit union was able to 
quickly detect the scam and alert customers, there were 
thousands at risk for compromised personal information. This 
bill intends to protect cell phone users from this kind of 
harmful mischief in the same way we protect consumers from 
spoofing or voice caller ID.
    Next, we will consider the LPTV and Translator Act of 2014, 
a discussion draft offered by Mr. Barton that addresses how the 
FCC should treat low-powered television stations and television 
translators in the upcoming broadcast incentive auction. The 
incentive auction was one of this committee's contributions to 
the Middle Class Tax Relief and Job Creation Act of 2012, and 
offers broadcasters compensation for relinquished spectrum to 
be used for other purposes. While low-powered stations and 
translators are not eligible to participate in the auction, 
this draft urges the FCC to account for the value of LPTV and 
translators to communities all across our country. Translators 
play an important role for so many in the mountain west, 
including my own district in eastern Oregon. I have long urged 
the Commission to keep this value in mind when conducting the 
repacking analysis, and was happy to work with Mr. Barton on 
the language on this discussion draft. This draft would 
memorialize that sentiment in law as well as allow LPTV and 
translator licensees additional opportunities to petition the 
FCC to stay on the air after the incentive auction process is 
complete.
    Finally, we will consider the E-LABEL Act, this bipartisan, 
bi-cameral proposal is a commonsense piece of legislation that 
brings outdated regulations in line with consumer expectations. 
Currently, all equipment and devices that are licensed by the 
FCC for radio frequency compliance must have a physical label 
that shows the licensing information. You will see it right 
there on the back of your smart phone. The E-LABEL Act would 
allow manufacturers of devices with screens like smart phones 
to display a digital label rather than the physical mark on the 
device itself. Now, that makes it easier and less expensive to 
put a label on your ever shrinking electronics. This 
legislation is another example of bringing existing regulations 
in line with modern technology by allowing digital labeling 
consumers and regulators can still access important information 
easily without the sometimes onerous requirements on 
manufacturers. It reminds me of those labels on your mattress 
that says do not remove this label under penalty of law.
    Ms. Eshoo. Under penalty of law.
    Mr. Walden. E-labels can provide more detailed information. 
Did you ever cut them off, by the way? E-labels can provide 
more detailed information without the space limitations of a 
physical label, as well as potential cost savings as labels can 
become part of the code programmed into a device, rather than 
etched into the external body of the equipment.
    I want to recognize the FCC for their work on this issue, 
led by Commissioners O'Rielly and Rosenworcel. The Commission 
issued guidance for manufacturers wishing to use digital 
labeling for their devices, including guidelines for how to 
properly display the information and how to educate consumers 
on accessing the labels. I also commend my colleagues, 
Representatives Latta and Welch, as well as Senators Fischer 
and Rockefeller, for their bipartisan work in this effort to 
streamline and modernize consumer protection rules. More 
efficient Government and regulation for the innovation era is a 
goal of the Energy and Commerce Committee, and one that our 
subcommittee is clearly committed to furthering.
    So we look forward to the testimony of our witnesses, and I 
yield back the balance of my time.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    We're here today to conduct an important part of this 
committee's business: a legislative hearing on bills and 
discussion drafts. We'll be considering three different but 
useful pieces of legislation that will benefit consumers, 
streamline electronic device manufacturing for the digital age, 
and protect Americans from misleading communications.
    H.R. 3670, the Anti-Spoofing Act of 2013, aims to prevent 
bad actors from using ``spoofing'' services to misrepresent who 
is sending a text message. Introduced by Reps. Barton and Meng, 
this bipartisan billenhances the protections of the Truth in 
Caller ID Act of 2009 by extending the prohibition to text 
messages. Spoofing, when a caller purposely falsifies who is 
originating a call or a text message, has often been used 
maliciously by scammers to trick unsuspecting recipients. By 
utilizing one of many easily found ``spoofing'' services, the 
perpetrator can make a text message appear as though it is from 
anyone the sender chooses to impersonate, usually posing as a 
familiar Web site, service, or friend or relative of the 
recipient. Thinking that they are talking to someone they know 
and trust, the person on the receiving end is convinced to give 
up personal and sensitive information, like a bank account 
number or password. For example, customers of a Florida credit 
union received text messages that were allegedly from the bank, 
alerting them to ``unusual activity'' on their account and 
requesting information including credit card numbers, PIN 
numbers, and account numbers. While the credit union was able 
to quickly detect the scam and alert customers, there were 
thousands at risk for compromised personal information. This 
bill intends to protect cell phone users from this kind of 
harmful mischief, in the same way we protect consumers from 
spoofing of voice caller ID.
    Next we will consider The LPTV and Translator Act of 2014, 
a discussion draft offered by Mr. Barton that addresses how the 
FCC should treat low-power television stations and television 
translators in the upcoming broadcast incentive auction. The 
incentive auction was one of this committee's contributions to 
the Middle Class Tax Relief and Job Creation Act of 2012, and 
offers broadcasters compensation for relinquished spectrum to 
be used for other purposes. While low-power stations and 
translators are not eligible to participate in the auction, 
this draft urges the FCC to account for the value of LPTV and 
translators to communities all across this country. Translators 
play an important role for so many in the mountain west, 
including my own district in eastern Oregon. I have long urged 
the Commission to keep this value in mind when conducting the 
repacking analysis and was happy to work with Mr. Barton on the 
language on this discussion draft. This draft would memorialize 
that sentiment in law, as well as allow LPTV and translator 
licensees additional opportunities to petition the FCC to stay 
on the air after the incentive auction process is complete.
    Finally, we will consider the E-LABEL Act. This bipartisan, 
bicameral proposal is a common sense piece of legislation that 
brings outdated regulations in line with consumer expectations. 
Currently, all equipment and devices that are licensed by the 
FCC for radio frequency compliance must have a physical label 
that shows the licensing information--you'll see it right there 
on the back of your smartphone. The E-LABEL Act would allow 
manufacturers of devices with screens like smartphones to 
display a digital label rather than the physical mark on the 
device itself, making it easier and less expensive to put a 
label on our evershrinking electronics.
    This legislation is another example of bringing existing 
regulations inline with modern technology. By allowing digital 
labeling, consumers and regulators can still access important 
informationeasily, without the sometimes onerous requirements 
on manufacturers. E-labels can provide more detailed 
information without the space limitations of a physical label, 
as well as a potential cost-savings as labels can become part 
of the code programmed into a device, rather than etched into 
the external body of the equipment. I want to recognize the FCC 
for their work on this issue, led by Commissioners O'Rielly and 
Rosenworcel. The Commission issued guidance for manufacturers 
wishing to use digital labeling for their devices, including 
guidelines for how to properly display the information and how 
to educate consumers on accessing the labels. I also commend my 
colleagues, Reps. Latta and Welch, as well as Senators Fischer 
and Rockefeller, for their bipartisan work on this effort to 
streamline and modernize consumer protection rules. More 
efficient Government and regulation for the innovation era is a 
goal of the Energy and Commerce Committee and one that this 
subcommittee is committed to furthering.
    I'd like to thank all of our witnesses for being here today 
to discuss these bills, including Reps. Latta and Meng who have 
graciously offered to appear and speak on their respective 
bills. I look forward to a conversation about these three 
pieces of potential legislation.

    Mr. Walden. And now I recognize the gentlelady from 
California, the ranking member of the subcommittee, Ms. Eshoo, 
for an opening statement.

 OPENING STATEMENT OF HON. ANNA G. ESHOO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Eshoo. Thank you, Mr. Chairman. As you stopped, I 
thought is he going to recognize me? And you did. Thank you.
    Good morning, everyone. And welcome to our colleague, 
Congresswoman Meng from New York. We are delighted that you are 
here and proud of the work product that you have brought 
forward.
    3670, the Anti-Spoofing Act of 2013, is a bipartisan bill, 
and it is aimed at reducing the number of fraudulent phone 
calls and text messages received by millions of Americans. It 
is a very practical bill. It is a bill that is really going to 
correct something that I think everyone in the country wants 
corrected. So I really salute you for coming up with something 
that is very practical.
    Just this morning, NPR ran a story about a series of 
spoofing incidents in Maryland where people received calls 
purported to be from the State police demanding payment for 
court or traffic fines. I mean, most people would just out of a 
little bit of fear and intimidation just pay attention to it 
and, you know, these frauds would do very well by their 
fraudulency with vulnerable people. So at a time in which 
unscrupulous behavior is on the rise, this pro-consumer bill 
will better protect Americans from becoming victims of scammers 
and deceitful telemarketers. And, again, I commend 
Congresswoman Meng for her leadership and for assembling a 
bipartisan group of cosponsors. That is the secret sauce around 
here. And I salute you for doing that, coupled with the 
endorsements from AARP, the major county sheriff's association, 
the major cities, chief's association and Public Knowledge, 
which is wonderful that Public Knowledge has endorsed the bill 
as well.
    And so, Mr. Chairman, I look forward to your proceeding 
with a markup of this bill, because it is an excellent one. I 
am also pleased to support our colleague, Mr. Latta's bill, the 
E-LABEL Act. That too is a bipartisan bill. And he worked with 
our colleagues, Mr. Welch and Ms. Blackburn in introducing that 
earlier this week. You explained what the E-labeling guidance 
issued by the FCC earlier this month does. And to promote the 
electronic labeling for FCC certified devices, phones, 
computers, smart watches, this is only going to grow, this 
field. And this needs an update. And I think it is an excellent 
one.
    I have concerns with the LPTV and Translator Preservation 
Act. Low-powered television stations provide a very important 
public service in communities around the country, particularly 
in the rural America. And it is why as part of the Spectrum and 
Public Safety Act of 2012 members agreed on a bipartisan basis 
to preserve the spectrum usage rights of LPTV stations. But 
given the FCC new instructions when they are well into the 
design and development of the most complex spectrum auction 
ever conducted, I think would add unnecessary complexity, and 
it could dismantle--I am not saying will, but could dismantle 
the carefully crafted balance on other issues of importance to 
the subcommittee, including maximizing both licensed and 
unlicensed.
    So thank you, Mr. Chairman. And I am looking forward to 
hearing the testimony of those that are here today, the 
distinguished first panel and the second one. And I yield the 
remainder of my time to Mr. Doyle.

OPENING STATEMENT OF HON. MICHAEL F. DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Doyle. I want to thank my friend for yielding. Mr. 
Chairman, thank you for this hearing today. And we look forward 
to hearing from our colleagues.
    Mr. Chairman, I want to use this short amount of time I 
have to just make some comments on the proposed Communication 
Act update. This is something that I have been monitoring with 
great interest, but also some concern. I know at this point 
that majority staff has released a number of Brief White Papers 
on spectrum competition and interconnection. I think these are 
important issues, and it is this subcommittee's duty and 
responsibility to address these topics. But I would say to my 
friend that these updates won't move forward unless you start 
reaching out to members and staff on our side of the aisle. 
These issues are real that are at stake, and there is real 
opportunities to make things better for the people of our 
country.
    Mr. Chairman, I just want to use the opportunity to urge 
you in the most friendly and kind way that we move forward with 
the limited time in the session that we have over the next few 
months to engage our side in meaningful discussion so that we 
can put forward a bipartisan discussion of these issues. I 
thank you, and I look forward to working with you, Mr. 
Chairman.
    Mr. Walden. I appreciate the gentleman's comment, would be 
happy to have that conversation with him at another time.
    Mr. Doyle. Great.
    Mr. Walden. And now, all time has been expired on that 
side. Now, we recognize Mr. Barton for 5 minutes.

   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Barton. I don't think I will take 5 minutes, Mr. 
Chairman, but I do appreciate the opportunity.
    There are two bills that I have been actively engaged with 
that are the subject of this markup today, H.R. 3670, which is 
the Anti-Spoofing Act of 2014, and the Low-Power TV and 
Translator Preservation Act of 2014. Representative Meng, who 
is sitting at the witness table, and I have been working 
closely on H.R. 3670 to modernize the Truth in Caller ID Act of 
2009 to include text messaging services, IP enabled voice 
services and to hold foreign spoofing services accountable to 
the law. Due to the many conversations that we have had with 
various stakeholders, it would be my intention that this bill 
does go to markup to offer an amendment in the nature of a 
substitute to address some of the concerns that have come up in 
the stakeholder discussions.
    There have been a number of spoofing incidents this year 
alone, one in Abilene, Texas, in my State, just last Friday 
when a person pretended to work for a roofing company in order 
to collect money up front from the customers that they were 
calling. Another incident, just two weeks ago, involved a Bank 
of America, and someone commented on the story that they 
received text messages from what appeared to be the Bank of 
America directing them to call a number concerning a problem 
with their own account, only to later realize that it was a 
scam.
    The majority of the members of this subcommittee, Mr. 
Chairman, including yourself and Ms. Eshoo, have cosponsored 
H.R. 3670. So this is a bill that I think, to echo what Mr. 
Doyle just commented on, does have bipartisan cooperation, 
could move through the committee to the floor and even through 
the other body and to the desk of the President this year.
    On the Low-Power Television and Translator Preservation 
Act, I am very quite frankly surprised on both sides of that 
one some of the strongest low-powered TV advocates are against 
this bill because they think it doesn't do anything. On the 
other side of the equation, there are people that think it goes 
too far and that somehow it would impact in a negative way the 
pending auction. The truth of the matter is that with your 
help, Mr. Chairman, I think we have got it just right. It does 
give low-powered TV license holders increased moral standing, 
if nothing else, in their petitions before the FCC. But as you 
know and I know, under current law, they don't have a 
guarantee. They have a secondary license which can be revoked 
by the FCC. If this bill does become law, they will still have 
a secondary license. They will not have any guarantee. But they 
will have the strength that--again, if this were to become 
law--that legislatively, the House and the Senate, as signed by 
the President, wants the FCC to work with low-powered TV 
license holders to give them the best chance possible to 
maintain their viability in the marketplace.
    On the Low-Power TV, Mr. Chairman, I've worked with the 
National Association of Broadcasters, the Advanced Television 
Broadcast Alliance, the National Translators Association, the 
National Religious Broadcasters. I have also worked very 
extensively with you and your staff to modify and to hopefully 
perfect this bill. So I do hope, Mr. Chairman, we have a good 
hearing. And I hope in the very near future we can go to markup 
on both of these bills.
    [The prepared statement of Mr. Barton follows:]

                 Prepared statement of Hon. Joe Barton

    Today, I have two pieces of legislation being discussed 
that I have been working diligently on: H.R. 3670, the Anti-
Spoofing Act of 2014, and the LPTV and Translator Preservation 
Act of 2014.
    Representative Grace Meng and I have been working closely 
on H.R. 3670 to modernize the Truth in Caller ID Act of 2009 to 
include text messaging services, IP-enabled voice services, and 
to hold foreign spoofing services accountable to the law. Due 
to the many conversations had with various stakeholders, it 
would be my intention, if this bill went to a markup, to offer 
an Amendment in the Nature of a Substitute to address all 
concerns.
    There have been a number of spoofing incidents this year 
alone to include one in Abilene, TX, reported last Friday when 
a person pretended to work for a roofing company in order to 
collect money up-front from the customers.<bullet>A\1\ Another 
incident was reported on July 7, 2014, involving Bank of 
America and someone commented on the story that they received 
text messages from what appeared to be Bank of America, 
directing them to call a number concerning a problem with their 
account, to later realize that it was just a scam. \2\
---------------------------------------------------------------------------
    \1\ The article is available at http://www.ktxs.com/news/phone-
spoofing-crime-surfaces-in-abilene/27017160.
    \2\ The article is available at http://www.azcentral.com/story/
money/business/consumer/call-12-for-action/2014/07/06/debit-card-
phishing-scam-call12/12275239/.
---------------------------------------------------------------------------
    I am proud to see that the majority of my colleagues on 
this subcommittee have cosponsored this bill, including you, 
Mr. Chairman, and Ranking Member Anna Eshoo, and it is my hope 
to see this bill move forward through the committee to have a 
vote taken on the House floor.
    As for the LPTV and Translator Preservation Act, I am happy 
to have worked with you, Mr. Chairman, to highlight the LPTV 
industry during the incentive auction process. As current law 
stands, LPTV broadcasters carry a secondary license to full-
power stations, which means that a LPTV broadcaster could 
potentially lose the spectrum they hold in the incentive 
auction. While this bill does not guarantee additional rights, 
it does provide the LPTV community with a stronger moral 
position and enhanced standing before the Federal 
Communications Commission.
    I have worked with the National Association of 
Broadcasters, Advanced Television Broadcast Alliance, National 
Translators Association, and the National Religious 
Broadcasters on this issue. It is my belief that this bill 
should become law to ensure that the FCC does not easily 
overlook the important services offered by the LPTV industry 
and TV translators. I hope to see this bill move forward.

    Mr. Walden. I thank the gentleman, who now yields to the 
vice chairman of the committee, Mr. Latta.

OPENING STATEMENT OF HON. ROBERT E. LATTA, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Latta. Well, thank you very much to the gentleman for 
yielding. And thank you very much, Mr. Chairman, for holding 
this legislative hearing on these important bills today.
    With the advancement of technology, businesses and 
consumers alike have reaped tremendous benefits. To ensure that 
consumers continue to profit from groundbreaking applications 
and services, and businesses continue to find opportunities for 
investment and growth, we need to make sure our laws reflect 
the 21st century information and communications technology 
marketplace.
    This will not only help foster future innovation as the E-
LABEL Act promotes, but it will also protect gains we have made 
with technologies currently employed today which the Anti-
Spoofing Act and the LPTV and Translator Act address. I look 
forward to addressing and engaging in a closer examination on 
each of these bills.
    And I thank the chairman, and I yield back.
    Mr. Walden. The gentleman yields back the balance of his 
time. And I think now we go to--who on your side would like--
would recognize for Mr. Waxman's time? Mr. Welch, do you seek 
any time? Mr. Doyle, any further time?
    Mr. Doyle. I don't.
    Mr. Walden. Ms. Eshoo?
    Mr. Doyle. Let us get to our witnesses.
    Mr. Walden. Yes. OK.
    Ms. Eshoo. Good move.
    Mr. Walden. I like the way you think. I think we are OK on 
our side, right? Because we have done both. So at this point 
now, we will go--oh, look who showed up at the witness table. 
It is a two-fer. A Latta two-fer. We are delighted to have both 
of our colleagues here today, and appreciate the good work that 
you have both done on these and other pieces of legislation. 
And so with that, we will go to panel one. And we will 
recognize the gentleman from Ohio, Mr. Latta, to open. And then 
we will go to Ms. Meng, as well.

    STATEMENTS OF HON. ROBERT E. LATTA, A REPRESENTATIVE IN 
    CONGRESS FROM THE STATE OF OHIO, AND HON. GRACE MENG, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW YORK

               STATEMENT OF HON. ROBERT E. LATTA

    Mr. Latta. Well, thank you very much, Mr. Chairman. And I 
greatly appreciate the opportunity to give testimony on the 
legislation today. I also want to thank Ranking Member Eshoo 
and all the other members of the subcommittee today. I 
appreciate the opportunity to present testimony on the 
bipartisan E-LABEL Act.
    The Federal Communications Commission has instituted an 
equipment authorization program where electronic devices are 
required to display a physical label documenting that it has 
been properly certified by the Commission for commercial use. 
The label is also intended to provide consumers with means to 
readily obtain additional information about the device as 
efficiently as possible. While the information contained on the 
label serves as an important function and extends meaningful 
benefits and protections to consumers, the time has come for 
the Commission to update its rules to reflect modern technology 
and modify its equipment identification requirements to permit 
electronic labeling or E-labeling for wireless devices.
    The current rule requiring physical labeling was adopted by 
the FCC back in the 1970s. The Commission revisited that rule 
in the late 1980s, and, while it eliminated some labeling 
requirements, the technological capability of wireless devices 
at the time was admittedly not able to fully support an 
equipment authorization standard other than the existing 
physical labeling system.
    As we all know, technology, especially in the wireless 
market, has advanced significantly since that time, and 
wireless devices are today equipped with numerous 
functionalities. They are without question able to support the 
modernized equipment authorization standard of E-labeling if 
given the option.
    Permitting E-labeling would not only facilitate efforts to 
bring our communication laws in line with 21st century 
technologies, but it would also benefit both manufacturers and 
consumers. Manufacturers have increased flexibility to design 
innovative products that consumers demand. It would also reduce 
device manufacturers' development cost. According to the 
Telecommunications Industry Association, E-labeling could 
result in over $80 million in saving per year for companies. 
Consumers in my State of Ohio and across the country would also 
benefit from the efficiencies created by E-labeling. E-labeling 
can expand consumer access to relevant device information, and 
enhance the overall quality and availability of equipment 
identification records through supporting software.
    The FCC recently released guidance on E-labeling. I welcome 
the FCC's efforts on this issue and recognize it as an 
important first step in promoting the use of E-labels. The E-
LABEL Act will facilitate efforts at the Commission by 
establishing a timeframe for moving forward with a rulemaking. 
This will ensure that the Commission takes timely action on 
this issue and resolves any uncertainty that manufacturers 
might have in opting to use E-labels.
    We are in the midst of an innovation era where new and 
groundbreaking technologies and devices are introduced into the 
information and communications technology marketplace almost 
daily. Our laws need to reflect this reality.
    I thank Congressman Welch, Congresswoman Blackburn and 
Ranking Member Eshoo for their support on this measure. I thank 
Chairman Walden again for the opportunity to present the 
testimony today on E-LABEL ACT and advance efforts to modernize 
our communication laws for the digital age. And I thank the 
chairman again.
    [The prepared statement of Mr. Latta follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Walden. I thank the gentleman for this testimony. And 
now we will go to the gentlelady from New York, Ms. Meng, for 
her testimony on this legislation. We appreciate your bringing 
this forward to us. And please go ahead.

                  STATEMENT OF HON. GRACE MENG

    Ms. Meng. Chairman Walden, Ranking Member Eshoo and members 
of the subcommittee, thank you for holding this hearing on my 
bill, H.R. 3670, the Anti-Spoofing Act, which I sponsored along 
with Mr. Barton, Mr. Lance and seven other Republican and seven 
Democratic members of this subcommittee. I also thank you for 
inviting me to discuss the bill today. It is a great honor to 
appear before such an esteemed panel.
    We address today the problem of caller ID spoofing, which 
is the scrambling of caller identification numbers. It is a 
tool often used to defraud unwitting recipients of phone calls 
and text messages.
    It is often stated that the measure of a society is how it 
treats its most vulnerable. Almost every day, I receive new 
reports of caller ID spoofing that harms the most vulnerable in 
our society. We have reports of widespread caller ID spoofing 
of new immigrants, which is why USCIS recently issued a former 
scam alert on caller ID spoofing. And we have reports of 
widespread targeting of seniors, which is why the AARP wrote a 
letter in support of this legislation. Veterans are primary 
targets as well.
    Caller ID spoofing is also fracturing the trust built 
between communities and local law enforcement, because scammers 
are falsely using police department's phone numbers to trick 
residents, as we recently heard today. For this reason, the 
major city's chief's association and major county sheriff's 
association have endorsed this legislation.
    I even saw the Chicago Tribune reported on Monday that the 
families of the unaccompanied minors at the border are being 
targeted by caller ID spoofing. I mention this not to wade into 
the border security debate, but rather to underscore the point 
that if there is a vulnerable or weak population among us, it 
is likely they are being targeted by caller ID spoofing.
    Shortly after entering Congress, I pursued this issue 
because of complaints from a local civic organization and 
seniors in my district. But I quickly realized it is affecting 
Americans in all corners of our country in all of our 
districts. This past tax season, a huge scam was revealed 
whereby caller ID spoofing was used to dupe tens of thousands 
of Americans nationwide into thinking they were being contacted 
by the IRS, which they were not.
    I have had very good conversations with many of you on the 
subcommittee about pervasive caller ID spoofing in your own 
districts. And I think the fact that this is playing in so many 
of our communities is a big reason why we have so much 
bipartisan support here today.
    H.R. 3670 is an update to the Truth in Caller ID Act of 
2009. That legislation first criminalized malicious caller ID 
spoofing. But since the passage of that law, scammers have used 
legal loopholes and new technologies to circumvent it. Thus, 
malicious caller ID spoofing is on the rapid rise again. So it 
is time to strengthen and tighten existing law and shut down 
the roots by which it is being circumvented. And that is what 
our bill does.
    There are three main parts to H.R. 3670, and I will review 
them briefly now. Number one, the bill broadens current law to 
prohibit caller ID spoofing from foreigners. This is crucial 
because U.S. based companies now spoof calls to U.S. residents 
with intent to do harm but originate such calls from outside of 
the United States. Two, the bill broadens current law to 
include new Internet based voice over IP services that enable 
callers to make outgoing only calls from computers and tablets 
to mobile and landline phones. This is a technology that was 
undeveloped in 2009 when the Truth in Caller ID Act was 
adopted, and therefore unaccounted for in that law. But it has 
now grown and has contributed significantly to the caller ID 
spoofing problem. Three, finally, our bill broadens current law 
to include text messaging. We all know this technology has 
developed, and we thus see text message caller ID spoofing with 
increasing regularity.
    I also just want to note that current law and H.R. 3670 
only pertain to caller ID spoofing with intent to defraud or 
cause harm. Sometimes caller ID spoofing can be applied 
beneficially and benignly, and we have taken great care to 
exclude such cases from the legislation.
    In closing, I would like to once again thank the committee 
for considering this legislation and for giving the time of day 
to a freshman who is not a member of the committee. This 
process has been a wonderful and inspiring experience for me to 
take a problem I heard from my constituents and work through 
the legislative process in such a positive and bipartisan 
fashion to try and solve that problem. I would especially like 
to thank Mr. Barton and Mr. Lance for working with me to write 
this bill, Chairman Walden and Ranking Member Eshoo for all 
their guidance, leadership and support, and all the 
subcommittee cosponsors who were instrumental in bringing about 
consideration of this bill.
    I would like to thank the witnesses who came to speak 
today, and of course the committee and personal staffs who have 
done such terrific work here. I look forward to continuing to 
work with the committee on this issue and legislation.
    I thank you again, Mr. Chairman.
    [The prepared statement of Ms. Meng follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Walden. Ms. Meng, thank you for bringing this to our 
attention and working with our committees and our staffs on 
both sides of the aisle to move good public policy forward, and 
we appreciate what you have done.
    We want to thank you both for being here. We actually won't 
grill you. That is our normal procedure, to let Members come 
and make their case and depart. So thank you for being here, 
and thanks for bringing this to us.
    We will now move on to the second panel while you two 
depart. Mr. Louis Libin, did I say that correctly?
    Mr. Libin. Yes.
    Mr. Walden. Thank you. Executive Vice President, Advanced 
Television Broadcasting Alliance, and Mr. Harold Feld, Senior 
Vice President, Public Knowledge. We welcome both of you 
gentlemen here to testify this morning. And just bring those 
microphones close. That is kind of how they work. And push the 
button. And, Mr. Libin, we will start with you. And thanks 
again for being here.

    STATEMENTS OF LOUIS LIBIN, EXECUTIVE DIRECTOR, ADVANCED 
TELEVISION BROADCASTING ALLIANCE, AND HAROLD FELD, SENIOR VICE 
                  PRESIDENT, PUBLIC KNOWLEDGE

                    STATEMENT OF LOUIS LIBIN

    Mr. Libin. Chairman Walden and Ranking Member Eshoo and 
distinguished members of the subcommittee, my name is Louis 
Libin. I am the Executive Director of the Advanced Television 
Broadcasting Alliance, which is comprised of hundreds of low-
powered television, or LPTV, broadcasters and owners and 
operators of translators. Thank you very much for the 
opportunity to testify regarding the impact of the planned 
broadcast incentive auctions on LPTV stations, translators and 
boosters. In particular, I appreciate the efforts of Chairman 
Barton to develop the LPTV and Translator Preservation Act, 
which will require the FCC to consider the great benefits of 
LPTV and translator stations, rather than indiscriminately 
eliminating their licenses without any consideration of the 
value these stations provide to underserved communities.
    LPTV service was created to enhance diversity by allowing 
more unique voices to provide free, over the air television 
service. LPTV stations address the needs of minorities, women, 
ethnic communities, the elderly, children and other underserved 
populations. They also broadcast in rural areas where full-
power stations sometimes are not commercially viable. 
Translators extend the reach of broadcast stations into 
isolated areas. More than 5,000 LPTV stations and translators 
serve tens of millions of Americans. In many places, these 
stations are the only broadcast television service available, 
and they often provide communities their only access to the 
affiliates of major broadcasting networks. Many translators 
were built and are operated by local communities to bring 
broadcast television to their citizens.
    A third or more of the LPTV and translator stations are now 
at risk of being shut down by the FCC as it conducts the 
incentive auction. As you know, the 2012 Congress authorized 
the FCC to conduct an incentive auction of broadcast spectrum. 
The 2012 Spectrum Act expressed a fundamental principle about 
spectrum use that spectrum allocation should reflect market 
demand. Unfortunately, the FCC's auction plan does not reflect 
this core principle. The FCC gives no consideration at all to 
the value of the service provided by LPTV and translator 
stations.
    Because the FCC does not have to share proceeds of the 
auction with LPTV or translator stations, those stations are 
simply free spectrum in the eyes of the FCC. From the 
perspective of the auction itself, there is no cost to 
eliminating LPTV and translator service. Under the FCC's 
auction rules, the FCC could cancel hundreds or even thousands 
of LPTV and translator licenses, even if doing so would not 
generate a single dollar in additional revenue for the auction. 
The FCC could eliminate LPTV and translator stations just for 
the sake of running the auction faster or with less precise 
calculations, or for the sake of completing the auction in less 
than half the 10 years Congress authorized. And that is exactly 
what the FCC is doing. It has adopted rules that run the 
auction at breakneck speed, with literally no consideration at 
all of the impact on citizens served by LPTV and translator 
services.
    This is not a market mechanism. It is a pointless, tragic 
destruction of value, jobs, diversity, localism and rural 
service. The FCC could shut down thousands of LPTV and 
translator stations to give wireless carrier spectrum in rural 
areas that they do not need, and likely will never use. The 
FCC's incentive auction order also treats low-powered 
television stations as secondary, even to unlicensed services. 
Congress did not authorize the FCC to elevate unlicensed 
services over licensed LPTV and translator services. While the 
economic costs of the FCC's approach will be born most directly 
by the licensees, the public served by these critical 
facilities is the big loser. The TV stations that air local 
high school football games, provide ethnic and foreign language 
programming, provide church services and weather alerts, and 
bring network programming into rural areas that are already 
underserved will all be gone without any consideration of the 
value lost to millions of Americans, and regardless of whether 
the market actually demands additional wireless spectrum in 
those areas.
    While LPTV and translator operators and their audiences 
would like to see much more done, the LPTV and Translator 
Preservation Act is a step in the right direction. We are very 
thankful for the support Chairman Barton has given to Americans 
who rely on LPTV and translator service. Thank you very much 
again for the opportunity to testify.
    [The prepared statement of Mr. Libin follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Walden. Mr. Libin, thank you. And go ahead and turn off 
that microphone. We appreciate your being here. We appreciate 
your testimony on this important matter.
    Mr. Feld, we welcome you to this discussion. Please go 
ahead.

                    STATEMENT OF HAROLD FELD

    Mr. Feld. Thank you, Chairman Walden and Ranking Member 
Eshoo. Thank you very much for inviting me to testify today.
    I want to start by voicing my strong support for both the 
Anti-Spoofing Act and the E-LABEL Act. These bills provide 
necessary updates the Communications Act, and Public Knowledge 
supports their swift consideration and passage.
    But while I agree with the principles behind the LPTV and 
Translator Act, I strongly recommend against consideration of 
this bill. Consideration of this bill creates needless 
uncertainty and delay around the broadcast incentive auction. I 
say needless because the FCC is already committed to doing 
precisely what this bill tells it to do. As I have said many 
times over the last 4 years, and as you have heard from others, 
the broadcast incentive auction poses enormous challenges for 
the FCC. The difference in complexity between the incentive 
auction and the first spectrum auctions conducted by the FCC in 
1994 is like the difference between the cell phones of 1994 and 
the smart phones of today. But instead of the gradual evolution 
over 20 years we had in phone technology, we are asking the FCC 
to jump from the auction equivalent of a brick phone to the 
auction equivalent of an iPhone.
    Adopting this bill will create new delay at a time when the 
auction framework finally appears to be coming together. After 
nearly 2 years of contentious debate involving some of the most 
renowned spectrum auction experts in the world, hundreds of 
engineers and thousands of stakeholders, the FCC adopted a 
framework for the auction in May. While much work remains to be 
done, we have reached the point where the FCC can set a 
timeline for the remainder of the process, and stakeholders can 
have confidence the auction will take place.
    Importantly, the FCC can begin building the entirely new 
auction software and hardware needed to make all the many 
pieces of this auction work together in real-time. But we can 
only move forward from here if all stakeholders have confidence 
that the framework adopted in May is a stable foundation on 
which to build, which brings me back to the LPTV bill. Despite 
efforts to limit the bill's scope, questions will reverberate 
throughout all aspects of the auction. Imagine a row of wine 
glasses packed tightly together. Tap one, and the rest start to 
hum as the vibrations ripple out. So to, implementation of the 
LPTV Act would reverberate through the entire auction 
framework. For example, the FCC will need to consider whether 
the bill's command to avoid terminations of LPTV and TV 
translator license where possible impacts the auction and 
repacking design, or whether reduction in projected revenue 
would be an adverse impact on the auction. These questions 
implicate the repacking as a whole, the band planned, and 
nearly every other key element of the auction design everyone 
thought we already settled. Work on the new auction software 
and hardware will slow or stop entirely until these questions 
can be settled again.
    And what is the urgent need that justifies this new delay 
and uncertainty? At the moment, none. The FCC is already 
committed to doing precisely what the bill requires. As part of 
the framework adopted in May, the FCC explicitly recognized the 
importance of LPTV and TV translator services, and committed to 
completing a further notice of proposed rulemaking to 
ameliorate the impacts of the auction. Given that the FCC 
appears to be on the right course, there seems no reason to 
introduce new potential devastating, uncertainty and delay.
    To conclude, the importance of localism and diversity in 
broadcasting is a value that no one questions. Localism and 
diversity have been the fundamental foundation of our national 
broadcast policies since Congress passed the Federal Radio Act 
in 1927. LPTV and TV translator licensees are important parts 
of that ecosystem, as the FCC continues to recognize. No one 
wants to eliminate licensees providing valuable services to 
their local communities. I may add that just last week before 
this bill was introduced, I and other members of the public 
interest spectrum coalition were present at a meeting with the 
FCC staff, and we once again urged the FCC to consider means to 
allow LPTVs to transition smoothly, including voluntary 
reduction in power, precisely the mechanism that the bill 
recommends.
    There is broad support for continuing service of LPTVs and 
translators, consistent with the direction that Congress gave 
to the Commission in the Spectrum Act of 2012. Passing new 
legislation, even if it is only intended to reinforce what the 
FCC is already committing to do, will reintroduce new 
uncertainty and delay at precisely the wrong time.
    Thank you. And I look forward to your questions.
    
    [The prepared statement of Mr. Feld follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Walden. Thank you, Mr. Feld. You have far more 
confidence in the FCC than I do. But then I understand why.
    I want to ask a couple of questions, because this really 
matters to the public, to consumers in districts like mine, not 
only in rural areas, but urban areas. And I have met with a lot 
of these folks who have LPTV and low power. They serve minority 
populations in many cases with specialty programming. And my 
message here, and I think it is shared by Mr. Barton, is I 
don't want a runaway FCC that simply squishes them because they 
can and takes them out. I am also not going to give them full-
power authority, because they didn't have that to begin with. 
But I think you are over the top in terms of kind of this 
notion you are going to blow up the whole auction, because you 
actually admit that the FCC is headed down this path anyway. I 
am reinforcing that. I was hoping to have a lot more faith in 
this FCC. But I am seeing some really bad behavior from the top 
down where Republican commissioners are kept out of the loop, 
where there is a process failure. I don't think this hearing is 
going to get into this. But I just think you are over the top, 
and I am just going to tell you that.
    In places like my district, these translators are really 
important. They really are. And I want to send a clear message 
without screwing up the auction that they need to be thoughtful 
about this, whether it is in a rural area or an urban area. 
There are a lot of people served. And you can have a band plan 
that squishes out just for the sake of getting more spectrum 
available for the big companies that want to buy it. And I 
think we have got to be thoughtful about the public spectrum 
and how it is used and how it is allocated.
    Now, Mr. Libin, a number of your colleagues in the LPTV 
community have also expressed opposition to this bill, I think 
for other reasons, and have suggested they would rather have no 
bill than this bill. Could you explain why some LPTV providers 
feel this way?
    Mr. Libin. I think that they are concerned that by opening 
this door it is going to bring discussions on LPTV and the 
auction and take it in places back to the FCC where it may not 
have the conclusions that they want. For example, there is an 
NPRM, a Notice of Proposed Rulemaking, on LPTV coming up. But 
that is really just a mechanism to talk about how essentially 
the FCC has plans to shut down these stations. It is surely not 
a mechanism to help LPTV. The LPTV industry I have to tell you 
is very different than the big broadcast industry. Actually, I 
come from NBC. I am used to coming with big contingencies. The 
LPTV industry is an industry of typically mom and pops. They 
are small businesses. Not that they don't employ people. They 
all employ a lot of people.
    Mr. Walden. Right.
    Mr. Libin. We are not talking about eliminating thousands. 
It is still a lot of people. But this is the other--
essentially, there may not be unity in the community, but it is 
becoming----
    Mr. Walden. We are aware of that.
    Mr. Libin. But it is becoming more and more. I believe that 
the industry is tightening up. I mean, you can see just in the 
past few months, we now have the NAB is our partner, and we 
have the National Translator Association. And we are working 
with the NRB. So I think we are really finding the commonality 
that we need. But it is a small industry.
    Mr. Walden. OK. That is the only questions I have. I will 
now yield back the balance of my time, recognize my friend from 
California, Ms. Eshoo.
    Ms. Eshoo. Thank you, Mr. Chairman. And thank you to both 
Mr. Libin and Mr. Feld.
    It seems to me I think I probably have more an observation 
after listening to the testimony and, of course, reading the--
you know, the staff memo that there are some issues to be dealt 
with here. And I think it is a question of how it is done. I 
think it is a question of how it is done and how we thread the 
needle.
    We had a chance to chat before as I came into the hearing 
room a little earlier this morning. And you were talking about 
rural areas and then said the Bay Area. The Bay Area doesn't 
have a lot of rural areas, but it does have some. And I asked 
you what you were referring to.
    Mr. Libin. The South City.
    Ms. Eshoo. What you were referring to is not rural. It is a 
heavily populated area. It is the northern part of San Mateo 
County, the county that I live in, just outside the city and 
county of San Francisco and very close to San Francisco 
International Airport. And there--it is the largest Filipino-
American community outside of the Philippines that resides in 
that area. So there are issues here and communities of interest 
that we need to look after. We are not looking to do something 
where there would be a loss of jobs or, very importantly, the 
communications that these communities of interest rely on.
    I don't think you have a case for completely rewriting the 
whole thing, to tell you the truth. And--but I do think that we 
need to work so that what I just mentioned and--or outlined as 
to the chairman that we thread this needle so that those two 
elements are not disrupted. I appreciate Mr. Feld's testimony. 
I love it when people come here and feel strongly about things. 
I really do, even when I disagree with them. I mean, it is the 
place to do that.
    And so I thank you for that. I do have the concern that, 
you know, we are what, now almost 2 years into the planning for 
the spectrum auction? And it is the first time in the history 
of our country--actually, in the world that this kind of 
auction is going to take place. So we are not--none of us want 
to throw sand in the gears. And I think that is what you are 
talking about. And the chairman has his misgivings about the 
agency and its jurisdictions and how they do things. I have I 
think more confidence than he does. But be that as it may, I 
don't want anyone squashed in this either, because I think we 
need to look after these important communities in our country. 
So I think more than anything else that we have got some work 
to do to refine this.
    I really don't have questions to ask you. I think the 
chairman already asked you, Mr. Libin, what I was going to ask. 
And, Mr. Feld, thank you for being here and for what you have 
focused on. And you always come here with a lot of passion. And 
I love that. I love it. So I think that we have some work to do 
together on this to help resolve some of the issues that the--
we not throw sand in the gears relative to the auction, but 
that we recognize that there are communities of interest that 
are really reliant on this. And I don't think, Mr. Libin, you 
are going to get everything you want. But you know what? No one 
does around here. So if we can resolve it the way I think we're 
both describing it, then we will have accomplished something.
    I yield back.
    Mr. Walden. The gentlelady yields back the balance of her 
time. I turn now to the former chairman of the committee, Mr. 
Barton, for 5 minutes.
    Mr. Barton. Well, thank you. And I appreciate the testimony 
of both of you gentlemen. I appreciate the comments of Ms. 
Eshoo and our chairman.
    I am going to go back to the story of Goldilocks and the 
Three Bears. There are probably some of the younger people 
don't get those stories anymore, but I am of an age that I 
remember those when I was a child. And there were three bowls 
of porridge. And one bowl was way too hot, and so one of the 
bears says it is too hot. And another bowl was way too cold, 
and the second bear said well, it is too cold. But then the 
third bowl, the middle bear said it is just right.
    Now, our Bill that is three pages--three pages--really just 
two pages. I am going to read the relevant portion, because 
this is one of these things that average people, and even 
members of Congress, can actually understand, you know? It is 
low-powered television translator and television booster 
stations, A, in general--now this is for the people that says 
it is too cold. OK? Nothing in this subsection shall be 
construed to alter the spectrum usage rights of low-power 
television stations, television translator stations or 
television booster stations shall be construed to alter the 
spectrum usage rights. This bill doesn't give them any new 
rights. OK? It doesn't give them any new rights.
    Now, B, preservation. And here the keyword is the third 
word, the Commission shall, s-h-a-l-l, shall, s-h-a-l-l, shall, 
one, in general, consider the benefits of low-power television 
stations, television translator stations and television booster 
stations to the communities of license of such stations 
consider the benefits. So it says the FCC has to consider the 
benefits. Two, where possible, avoid the termination of the 
low-power television station, television translator station or 
television booster station as along as such avoidance does not 
adversely impact the reverse auction under Subsection A(1) or 
the forward auction under Subsection C(1). And, three, after 
the completion of the reassignments and reallocations under 
paragraph 1(b), permit any low-power television station, 
television translator station or television booster station to 
request to operate at reduced power or from a different 
transmitter location consistent with the Commission's rules of 
such station or otherwise lose its license as a result of such 
reassignment or reallocation.
    So what this does, it says the FCC shall, if possible, 
preserve the termination of the low-power television station. 
So it does give increased standing. But that is all. The FCC 
still can make the decision, and it cannot impact the reverse 
auction. You know, Section A guarantees that. So with all due 
respect to Mr. Feld, I think this bill is just right. It 
elevates low-power television's standing before the FCC. They 
have to consider these things. But once they have considered 
them, you know, they can't let it adversely impact the auction, 
and they go forward. So, you know, this is one of those bills 
where it is funny to see some people in the industry itself 
saying, oh, this thing doesn't do anything, doesn't go far 
enough. Well, you can't give a right that they don't have now. 
But on the other hand, to have Mr. Feld and his folks, oh, it 
is going to hold up the auction. Oh, my God, you know? Well, 
what the hey? It just says they have to consider these things.
    Mr. Walden. Would the gentleman yield?
    Mr. Barton. I would be happy to yield.
    Mr. Walden. I think the last part is also really important. 
It says if after all--everything is said and done after the 
auction, if there is another way for them to survive, they 
should have the right to apply for that, different location, 
different power, different whatever. And I think that is the 
survival lifeline.
    Mr. Barton. Yes. So, you know, every now and then, Congress 
breaks out in commonsense. This is a commonsense bill. It 
really is. Now, my good friend, Anna Eshoo, if she has really 
got concerns about this, let me know. We will work with you. 
But these stations have real value. But under the current law, 
it is not considered. And instead of just letting the FCC do 
whatever the heck they want, this bill at least says hey, you 
have got to consider these things. And I think that is fair. I 
think it is the right thing to do. And I think it will result 
in a better process. As Mr. Libin pointed out, you know, why 
should you give an unlicensed operator operating a wide space 
more authority than somebody who at least has a secondary 
license? This bill does that. And I hope we can pass it on a 
bipartisan basis.
    Thank you for the courtesy.
    Mr. Walden. Thanks for working with us. And we appreciate 
your passion and your involvement in this issue. It is very 
important. I now turn to the gentleman from Iowa, Mr. Braley.
    Mr. Braley. Thank you, Mr. Chairman. I could have sworn, 
Mr. Chairman, that Mr. Barton was going in another direction 
with that fairy tale. I thought it was going to be Little Red 
Riding Hood. And I was just waiting for whom the big bad wolf 
was going to be, so I feel somewhat let down.
    Mr. Barton. I am saving that for full committee.
    Mr. Braley. But I think as we talk about these issues, 
which are important issues, it is also important to look back 
over the history of telecommunications. Because it is not the 
LPTV stations but the UHF stations that have served a more 
limited audience in remote areas of the country and often were 
in the vanguard of some of the innovation and technology in the 
industry. I happen to represent a UHF station in Dubuque, Iowa, 
which was in the vanguard of cable television because it was 
located on the bluffs of the Mississippi River. They had a hard 
time getting over the air signals from more conventional VHF 
stations. And through the work that was done there decades ago, 
the basic foundation for what we now know as cable television 
started to emerge in communities around the country. And since 
this spectrum is held in the public interest, I think it is 
important for us to keep that focus on those who have gone 
before and have led us down paths of innovation that provide 
the incredible array of services we now get over the spectrum.
    So I guess for the panel, my question for you both is in 
light of some of the comments that have been made here today, 
in light of how people are served across the country through 
these current LPTV stations, what are the biggest risks and the 
biggest rewards you see from moving forward with the 
legislation as it is currently drafted?
    Mr. Feld. Well, first, I would just like to address one 
misconception that I have now heard a couple of times, which is 
with regard to the relationship between LPTVs and unlicensed. 
It is important to realize that what the Commission has done is 
tried to balance things. And in fact, what the Commission did 
was to sort of merge wireless microphones, which are another 
secondary wireless service associated with broadcasting, and 
regarded as critical with broadcasting, with the unlicensed and 
say these are smaller transmitters, they operated in a way that 
is consistent with each other, we will have them share some 
space. And then over here, with the larger fixed transmitters, 
the LPTV and the translators, we will have a different question 
as to how we try to fit them in the intricacies of the 
repacking. So the FCC was very careful to not revisit its 
existing hierarchy. But what it has done is what Congress has 
directed it to do, which is balance many interests. In that 
light, I think that there is a tremendous opportunity here for 
the LPTV service as part of this transition through the 
incentive auction. It is true that the LPTV service has fallen 
on very hard times for a number of reasons, many of which are 
not related to the incentive auction but have to do with the 
digital transition, with the fact that they do not have must-
carry rights on cable. I used to work with this community a lot 
some years ago when I was at Media Access Project. My hope has 
been, and we have expressed it at every opportunity in our 
filings at the FCC, is that this is an opportunity for the 
Commission to recognize and reward those licensees that are 
providing local service, contributing to diversity, satisfying 
the public interest and upholding those traditions of trustees 
of the public airwaves while simultaneously examining those bad 
actors in the field who are, you know, speculators or who were 
not serious, or who for reasons totally unrelated to the 
incentive auction have essentially gone dark but still hold 
permits in the hopes that someday they will be able to come 
back again. And I think that the advantage and disadvantage of 
this process is it is really going to help separate the genuine 
service to local communities and hopefully, you know, shine a 
spotlight on those and reinvigorate those, while also 
maximizing spectrum efficiency overall.
    Mr. Libin. Thank you so much. I have to try to come back to 
the question that you had, and I think the question really was 
who will be impacted. And it is a great question. And if I knew 
that answer, then I would right now be sitting at the FCC, 
because I think they are the only ones who know. If you ask me 
who would be hurt, which LPTV and TV translator stations--well, 
not just stations but they could actually impact through a 
chain reaction through translators, because that is how they 
work. So how many? So the answer is, it is hundreds of 
thousands, or thousands. And it really turns out to be an 
amazing--nobody really knows. That is really the whole point.
    We are looking for transparency here. We are really trying 
to understand. We don't. If you ask me right now do we want to 
slow down the auction? Do I want to stop it? The answer is 
absolutely not. We want this to go forward. We think this is in 
the best interest of America. But we want to do it right. We 
want to make sure that everything we are doing won't be held 
up, just--you know, I could just examples of health. I am not 
going there. But we all know that we want to do right. This is 
a major deal.
    We are 2 \1/2\ years into a 10-year process. We are not 
rushed. Let us get it right. Let us get it really done right. 
If we look at who is going to be hurt, if you look at the 
ownership of LPTV and translator stations, it is somewhat close 
to 30 percent is minority and women ownership. If you look at 
if we call it the other broadcasters and cable, I think it is 
less than three percent. Those are the people that would be 
hurt. It is the people--whether they are sitting in Oregon or 
sitting in Youngstown, Iowa, and this is the only way they 
receive you, or in Utah and wherever they are. There are so 
many of these stations and so many people who rely on this 
service that I think we just need to tread very lightly when we 
are considering moving ahead with the auction. We need to 
consider LPTV and TV translators.
    Thank you so much.
    Mr. Braley. Thank you, and I yield back.
    Mr. Walden. Thank the gentleman. We will now recognize Mr. 
Latta for 5 minutes.
    Mr. Latta. Well, thank you very much, Mr. Chairman. And 
again, thanks for our witnesses for testifying for us today. 
And this, you know, is a very good discussion we are having 
here, because I know the question that the chairman asked, you 
know, why are some people against the bill? Ranking Member 
Eshoo was talking about that, you know, we are not always 
talking about rural areas, but, you know, it is areas that are 
impacted that have certain minority populations that could be 
hit. My friend from Iowa, Mr. Braley, was asking a question 
about who is going to be impacted.
    But, Mr. Libin, let me ask you this, because, again, I 
represent kind of a unique area. It goes from very, very rural 
and into parts of a large city. And when you are looking at all 
these questions that have been asked so far by members of the 
committee, I guess the question is if we have--if the FCC is 
not mindful of these LPTVs and the translator stations 
throughout the spectrum auction and shut them down, will you 
have rural consumers, or as the ranking member mentioned in 
larger cities that you have certain minorities that might be 
impacted with that, what are the options that these individuals 
are going to have out there from the rural or to the city if 
this has happened that they wouldn't have these LPTVs?
    Mr. Libin. I think that is a great question. When we talk 
about diverse, we are talking about financial as well. And 
there aren't always options. There are many options that all 
America--or a typical America could have when it comes to 
whether it is entertainment or news, or wondering if that there 
is a tornado warning is coming and how am I going to get that. 
Well, if they don't have this free over the air coming to them, 
and a lot of people this is the way they do have it now, they 
are not going to know. They are not going to know what is 
happening in their community. They are not going to know what 
is happening nationwide. But especially local, they are not 
going to know, aside from I mentioned high school football and 
all of that. But it really has to do with life and public 
safety. This is their lifeline for many, many people.
    And it is so interesting I brought up the Youngstown, Iowa 
before, because there are a number of LPTVs over there as well. 
But going back to when I was mentioning in the Bay Area, so--
and you brought up the opposition to LPTV, you know, it really 
is like a chess game, because in the Bay Area, we were talking 
about the language that they were speaking from the Philippines 
was Tagalog. I think I pronounced that right. Was that correct?
    Ms. Eshoo. Tagalog.
    Mr. Libin. Tagalog. This language that they do. But there 
is also Vietnamese and Mandarin. And they are all intertwined 
in that area. And these LPTV and translator stations are put 
like chess pieces there. So you are correct. If somebody now 
says wait a second, we might have to move our station. Well, if 
you are now receiving--you have your population of Mandarin, 
then what are they going to do with this station over here? So 
you are absolutely correct that there could be. So these are 
all very, very good issues. But I am glad that we are 
discussing them, because all of this is very important to an 
underserved population.
    Mr. Latta. Well, thank you very much, Mr. Chairman. I am 
going yield back the balance of my time.
    Mr. Walden. I thank the gentleman for his questions. Now, 
we will turn to--who is next on our side? Let us see. I think 
Mr. Long is next. Mr. Long, do you have questions for our 
witnesses, or a statement?
    Mr. Long. Thank you, Mr. Chairman. And thank you all for 
being here today.
    Mr. Libin, can you give me a specific example of maybe just 
one example of a low-power TV station which would go out of 
business if the FCC makes changes to the incentive auction?
    Mr. Libin. That is also a great question. So, as we know 
now, there are thousands of LPTV stations and translator 
stations. And I could make assumptions. But since we haven't 
seen any of the results of the auction yet, so I am not privy 
to what any of the results of the spectrum repacking study. 
This goes into the--all of this has to take the geography of 
the country, and then it goes down to the level of the specific 
area. And it has to--now, you have to do station coverage and 
decide well, there are different scenarios. How much spectrum 
are we getting back? If we are getting back so that we can sell 
in the auction a certain amount, if affects this number of 
stations. So you are asking a very, very good question. And I 
myself would love to know the answers, as well as the LPTV and 
the TV translator operators and owners, as well as the 
manufacturers of the equipment. Because within the past, I 
think, past month, just last week, one U.S. manufacturer of TV 
translator equipment has gone out of business because of all 
the uncertainty in this market. So--
    Mr. Barton. Would the gentleman yield, Mr. Long?
    Mr. Long. Yes.
    Mr. Barton. Let me rephrase the question that he just asked 
you, or give a generic answer. Wouldn't it be more likely that 
a low-power television station that had been operating in an 
area that had been rural but had now become more urban or 
suburban, and was in a growth area where there was a high 
demand for wireless services, and maybe like the Congressman's 
district in Branson, Missouri that if there were a low-power 
television station, that station might lose its license because 
of the demand for wireless carriage because the population had 
grown? Isn't that possibly an example?
    Mr. Libin. That is absolutely a very good example. Another 
example that would hit home to Chairman Barton would be if you 
look at, for example, if you take Texas and you look at Dallas, 
you can actually follow the translators along the interstate, 
because that is where the populations are. And if one of them 
are impacted, the whole chain goes down. So in that effect, we 
are talking about a very big effect to a lot of people.
    Mr. Barton. I thank the gentleman.
    Mr. Libin. Thank you so much.
    Mr. Long. Let me kind of follow up with all the moving 
parts and pieces. And I come from a 30-year background of the 
auction business. So I know a little bit about auctions. With 
all the moving parts and pieces that you are talking about, 
isn't that also going to affect how the bidders will look at 
what they need and what this auction will provide?
    Mr. Libin. I think so. I mean, it has to have an impact. 
But the impact is really minor. It is a minor impact, because 
again just by name, low-power television are lower power 
television. So they just need to be considered just as if there 
was some terrain in the way or something else. There is the 
impact of low-power television into the auction to be 
considered in all the repacking scenarios is an impact, but it 
is not a major, major impact.
    Mr. Long. OK. Thank you. And, Mr. Feld, from your testimony 
here today, you obviously think that the FCC has done a great 
job so far with this incentive auction preparation. Do you 
think they have made any mistakes and should have done anything 
differently or did anything differently regarding auction 
preparation?
    Mr. Feld. Well, I think that this has been a very 
challenging process for everybody, where everybody learns as 
they go. If we had known 2 years ago that this is where we were 
going to end up, we could have gotten here a lot faster. But I 
do have to say that one of the problems which I want to 
highlight is as Mr. Libin says from his perspective, this is a 
minor impact. But again, all of these impacts, because these 
issues are so tightly wound with each other, all have impacts 
everywhere else in the auction structure, which requires 
everything to be recalibrated. So I think part of the delay and 
part of the issue here has been how do you get all of these 
complicated pieces to work together when we have no guide and 
sometimes conflicting goals that the FCC has been instructed by 
Congress to balance? I also think that there is a concern about 
time. Mr. Libin has said, you know, we have 10 years to get 
this right. We don't really have 10 years. Congress gave the 
FCC 10 years to make sure that things could get done. But at 
impetus to pass legislation was the spectrum shortage, which we 
have been concerned about, and the demand for wireless capacity 
continues to grow. It was to fund deficit reduction, to fund 
FirstNet. And the longer we delay the auction, the longer these 
remain outstanding items on our Federal budget ledger. So I 
think that particularly here where I do believe that the FCC 
has been overall doing a pretty good job of trying to thread 
this needle, and where we have a process that is unfolding now, 
then rather than have Congress drop another bill, tell 
everybody to go rethink does this legislation change the 
progress that we have made so far, that we ought to keep going, 
Congress should continue to exercise oversight. And if the 
further notice does not work out the way that Congress believes 
is necessary, there will still be time to take corrective 
action.
    Mr. Long. OK. Thank you. And I am way over my time. And 
thank both of you once again. And, Mr. Chairman, I yield back.
    Mr. Walden. Mr. Long, thank you for your questions. Ms. 
Eshoo and I decided we are just going to put you in charge of 
the auction when we get this thing done.
    Ms. Eshoo. Yes.
    Mr. Walden. It would be a lot cheaper, faster, easier.
    Mr. Long. This thing here might take 10, 20, 30, 40 years.
    Mr. Walden. That is all right. And we will raise more 
money, and we guarantee we will have more fun. Mr. Matheson, I 
am just going touch base with you one more time. OK. Then we 
will go to Ms. Ellmers for final questions, if you have any?
    Mrs. Ellmers. Thank you, Mr. Chairman. Mr. Feld, I will 
start off with you, just in continuing the conversation here. 
From what I am hearing, you seem to believe that the proposed 
LPTV legislation would delay the incentive auctions. Obviously, 
you kind of made that clear. And, obviously, this is 
problematic. But what are the consequences if the FCC fails to 
protect translators and LPTV stations?
    Mr. Feld. Well, part of this is I understand that there is 
some--in your particularly--in the LPTV community, but from 
where we have been sitting and what we have been urging has 
been for the FCC to actually take great care to protect these 
services. The FCC has continued to recognize their importance.
    Mrs. Ellmers. Um-hum.
    Mr. Feld. We have continued to stress their importance. You 
know, Public Knowledge is an organization that has supported 
localism and diversity in media for a very long time. I think 
we all recognize that if services in communities that 
communities rely and go dark, that that would be a grave 
disservice to those communities and would be contrary to over 
80 years of communications long precedent. For that reason, I 
think that where the FCC is continuing to take these things 
very seriously, where the struggle has been to try to figure 
out how to balance multiple interests that Congress should 
continue to exercise its oversight.
    Mrs. Ellmers. Um-hum.
    Mr. Feld. Be prepared to step in, if necessary. But 
legislation is a very big step. And contrary to what Chairman 
Walden may believe, I know the FCC takes the acts of Congress 
very seriously. At least they spend a lot of time considering 
them. And if there is a bill that is proposed now, my concern 
is that it causes everybody to take their tokens, go back to go 
and reopen a lot of issues that we had thought were settled.
    Mrs. Ellmers. OK. Mr. Libin, I understand there is a 10-
year window of time that has been mentioned already. What do 
you see is the relevant timeline for the LPTV and translators 
in terms of your feelings of the impact of the incentive 
auction? Are you coming down to a shorter period of time now, 
as well, considering all things?
    Mr. Libin. Right. So first of all, our goal is, as I said 
before, is absolutely not to slow down the process at all. It 
is an optimization process. We now know more. We also know a 
little bit that the FCC sort of needs this nudge on LPTV and TV 
translators and boosters, because they have been advocating a 
little bit maybe on the side of the wireless providers. And 
that is where we sort of had this whole issue where now LPTV 
might be tertiary to the wireless providers. So I think that is 
why this is so important to come back with sort of the reminder 
from Congress that this is the way you have to treat LPTV. And 
I don't think that it really slows the process down. I think 
that in effect if we open it up, there are a lot of experts out 
there--a lot more experts who now could come in and can say and 
by the way, there are many tweaks that have to be done to the 
software right now. And so this is just another one. Let us add 
it in there. And let us see how far we can help keep the 
deadline, which is again we are all shooting for much less than 
10 years.
    Mrs. Ellmers. Right. And, Mr. Feld, do you want to expand 
on that?
    Mr. Feld. I would just like to add that our organization, 
Public Knowledge, other organizations in the public interest 
spectrum coalition, which include organizations that care a 
great deal about diversity in media, have consistently hoped 
that this can be a win for everybody. And one of the advantages 
of the ongoing FCC process is we continue to try to work with 
all of the communities who are involved to find solutions. As I 
say, we have proposed the solution that is actually proposed in 
this bill, this voluntary reduction in power in order to save 
licensees. We think that there are other ways in which we can 
cooperate rather than view this as a fight. And my hope is that 
in fact what we need is not a push for the FCC to go back to 
the beginning and force everybody to go through all of this 
again, but instead a nudge for all of the parties to come 
together and find solutions that are going to maximize the 
efficiency for everybody.
    Mrs. Ellmers. Um-hum. Thank you. And thank you both. And, 
Mr. Chairman, I yield back the remainder of my time.
    Mr. Walden. Thank the gentlelady. And I thank our witnesses 
for your testimony. If you have other comments we should be 
aware of, please submit them. And I am sure we will probably 
have some questions perhaps from the committee, so we will keep 
the record open for submission of that, as according to our 
rules.
    We thank you very much. And I thank everyone for being here 
and participating. And we stand adjourned.
    [Whereupon, at 11:24 a.m., the subcommittee was adjourned.]
    
    [Material submitted for inclusion in the record follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    

                                 [all]
                                 
</pre></body></html>
